November 21, 2019
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington D.C. 20543
Re:

St. James School v. Darryl Biel, as Personal Representative of the
Estate of Kristen Biel, No. 19-348

Dear Mr. Harris:
I represent the Petitioner in the above-captioned case. The petition for a writ of
certiorari was docketed on September 16, 2019, and the response was filed on
November 13, 2019. By this letter, Petitioners waive the 14-day waiting period for a
reply brief under Rule 15.5 and ask that the petition, response, forthcoming reply,
and amicus briefs be distributed on the next scheduled distribution date—November
26, 2019—for consideration at the December 13th conference.
Respectfully submitted,

Eric Rassbach
Counsel of Record for Petitioner

cc:

Jennifer Lipski
Counsel of Record for Respondent
JML Law, a P.L.C.
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

